APPENDIX

TABLE OF CONTENTS

Relevant Opinions, Orders, Findings of Fact, and Conclusions of Law
State v. Ezeka
946 N.W.2d 393 (Minn. 2020)................................................................App. 1
State v. Ezeka
Jury Verdict, including Special Verdict (Transcript)
(Minn. Dist. Ct.) ...................................................................................App. 53
State v. Ezeka
Motion for Judgment of Acquittal and Ruling on Motion (Transcript)
(Minn. Dist. Ct.) ...................................................................................App. 78
State v. Ezeka
Order on Defendant’s Motion to Suppress Custodial Statements (Minn.
Dist. Ct.) ...............................................................................................App. 80
Material Required by Supreme Court Rule 14.1(g)(i)
Rule 14.1(g)(i) Statement ..........................................................................App. 90
Other Material Necessary to Understand the Petition
Petitioner’s Written Invocation of Right to Counsel................................App. 91
Relevant Jury Instructions .......................................................................App. 92
Transcript of Custodial Interview (Jan. 23, 2017) .................................App. 106
Transcript of Custodial Interview (June 2, 2016) ..................................App. 137
State v. Ezeka
Complaint (Jan. 23, 2017) .................................................................App. 164
State v. Ezeka
Amended Complaint (Jan. 24, 2017).................................................App. 168
State v. Ezeka
Indictment (Mar. 9, 2017) .................................................................App. 173

State v. Ezeka
Video of Custodial Interview (Jan. 23, 2017) .................... N/A (Disc mailed)
State v. Ezeka
Video of Custodial Interview (June 2, 2016) ..................... N/A (Disc mailed)

App. 1

STATE OF MINNESOTA
IN SUPREME COURT
A18-0828
Hennepin County

McKeig, J.
Concurring in part, dissenting in part, Anderson
and Hudson, JJ.
Concurring in part, dissenting in part,
Thissen, J.

State of Minnesota,
Respondent,
vs.

Filed: July 15, 2020
Office of the Appellate Courts

Joshua Chiazor Ezeka,
Appellant.
_______________________________
Keith Ellison, Attorney General, Saint Paul, Minnesota; and
Michael O. Freeman, Hennepin County Attorney, Jonathan P. Schmidt, Assistant
Hennepin County Attorney, Minneapolis, Minnesota, for respondent.
Cathryn Middlebrook, Chief Appellate Public Defender, Andrea Barts, Assistant State
Public Defender, Saint Paul, Minnesota for appellant.
________________________________
SYLLABUS
1.

A 14-day break in custody ends the prot

of the right to counsel under Article I, Section 7 of the Minnesota Constitution.
2.

The district court did not abuse its

motion to suppress his post-Miranda statements.
1

App. 2

3.

ry instruction on the elements of

premeditated murder was not plain.
4.

jury instruction on accomplice testimony

did not affect appellant
5.

The district court erred when it imposed a 360-month sentence on the

attempted first-degree premeditated murder conviction because the sentence exceeds the
statutory maximum of 240 months.
Affirmed in part, reversed in part, and remanded.
OPINION
MCKEIG, Justice.
After waiving his Miranda rights during a custodial interrogation in January 2017,
appellant Joshua Ezeka admitted that he fired multiple shots at a rival gang member and
that one of his bullets fatally struck an innocent bystander. A grand jury indicted Ezeka
for several offenses, including first-degree premeditated murder. Ezeka moved to suppress
his post-Miranda statements, asserting three arguments. First, he argued that the protection
of an earlier invocation of the right to counsel under Article I, Section 7 of the Minnesota
Constitution was still in effect in January 2017. Second, he argued that his post-Miranda
statements were inadmissible under State v. Bailey, 677 N.W.2d 380 (Minn. 2004). Third,
he argued that his post-Miranda statements were involuntary. The district court denied the
motion, and, on appeal, Ezeka argues this was error. Ezeka also argues that he is entitled
to a new trial based on an erroneous jury instruction on the elements of premeditated
murder and because the district court failed to give a jury instruction on accomplice
2

testimony.

App. 3

Further, he asserts his 360-month sentence for attempted first-degree

premeditated murder was error because it exceeded the statutory maximum. Because we
were admissible and that the jury instructions were not

exceeded the statutory maximum, we reverse that sentence and remand for resentencing.
FACTS
This case arises from the death of Birdell Beeks, who died as a result of a shooting
on May 26, 2016. That day, at 6:03 p.m., a gunman fired nine shots at a gold Toyota
Corolla driven by D.G., a known member of the
and killed Beeks, who was sitting in a nearby van with her granddaughter.
Police suspected the gunman had fired the shots from a grass-covered vacant lot
behind the house where appellant Joshua Ezeka lived with his parents. A K-9 unit tracked
a scent from the vacant lot to the back door of

ned that the gunman

fled into the house, the police set up a perimeter and conducted a protective sweep of the
house.
In the course of the sweep, four of Ezek
were removed from the house. Ezeka was not in the house. The police obtained and
executed a search warrant. In a kitchen cupboard, the officers found ammunition with
s bedroom, they found a live .380 cartridge and a revolver;
and in the basement, the officers found more .380 caliber ammunition.
Ezeka was a member of a ri
camera footage from a nearby intersection captured images of a vehicle driven by Lows
3

App. 4

ene immediately after the

shooting. Cellphone records showed that the cellphones of Scott and Ezeka connected at
6 p.m. on May 26, 2016, near the crime scene.
Scott testified at trial that, during a police interview, he told police that he had called
Ezeka before the shooting to tell him that D.G.
Scott also told police that he met Ezeka
the shooting and they dr
vehicle.
On June 2, 2016, police investigators conducted a custodial interrogation of Ezeka.
During the interrogation, Ezeka invoked his right to counsel under Article I, Section 7 of
the Minnesota Constitution and the Fifth Amendment to the United States Constitution.
The investigators disregarded the invocation and continued to question Ezeka. Throughout
the interrogation, Ezeka maintained that he was not involved in the shooting. Ezeka was
released from custody 22 days later, on June 24, 2016.
Between July 1, 2016, and December 29, 2016, Ezeka was intermittently
incarcerated on unrelated matters. Ezeka ha
on December 30, 2016, a

en the State filed a criminal

complaint charging Ezeka with second-degree intentional murder for the shooting death of
Beeks. That same day, police arrested Ezeka at gunpoint and transported him to the
Hennepin County jail.
After Ezeka arrived at the jail, he was interrogated in the same room and by the
same investigators as the June 2016 interrogation. Unlike the June interrogation, Ezeka
4

App. 5

did not demand an attorney. The investigators greeted Ezeka in a cordial manner, saying,
asked if Ezeka remembered
the earlier interrogation. Ezeka said he did. The first investigator told Ezeka they had

response to these statements, Ezek
The investigators then discussed the evidence against Ezeka. They explained the
charges and the fact that Ezeka was facing 60

start showing you any of these pictures [from
our file] and talking about that, um, we gotta re
investigator could proceed, the second investigator interjected that drive-by shootings

an admission would stop the shootings. The first investigator told Ezeka that he did not
that are affiliated with [Beeks] . . . who [are]
shooting up your house but if you can provide us with some answers, maybe some

After reminding Ezeka that he was facing 60 years in prison, the second investigator
ill entertain an explanation of

ould not disclose the names of witnesses, the
5

App. 6

first investigator read Ezeka the Miranda warning. The pre-Miranda portion of the January
2017 interrogation lasted 13 minutes.
Ezeka waived his Miranda rights. He then told the investigators he wanted to see
the evidence in their file. The investigators showed Ezeka an aerial photograph of the
crime scene and asked him to point to the location of his house. After discussing who was
present in the house, the investigators showed Ezeka records that placed his cellphone at
the crime scene and documented a call from
6 p.m. on May 26, 2016. Ezeka repeatedly denied that the caller was Scott. In the end,
however, Ezeka provided the investigators a detailed description of his conduct. During
his post-Miranda statements, he admitted receiving the phone call from Scott (who told
him that D.G. was driving toward his house), leaving the backdoor of his house with a

he fled the scene with Scott.
In March 2017, a Hennepin County grand jury indicted Ezeka with several offenses,
including first-degree premeditated murder, Minn. Stat. § 609.185(a)(1) (2018).

The

charge of first-degree premeditated murder alleged that Ezeka,
intentionally aiding, advising, hiring, counseling or conspiring with another, or otherwise
procures the other to commit the crime, caused the death of [Beeks], a human being, with
premeditation and with intent to effect the death of that person, or another, while using a
1

The indictment also charged Ezeka with second-degree intentional murder of

1

or otherwise procures the other to commit
6

App. 7

Beeks, attempted first-degree premeditated murder of D.G., attempted second-degree
murder of D.G., and second-deg

ughter. Each of these charges

included an aiding and abetting theory of criminal liability.
In May 2017, Ezeka moved to suppress the post-Miranda statements he made to the
investigators during the January 2017 custodial interrogation.2 Ezeka argued that the
district court should suppress his statements for three reasons. First, he argued that the
investigators obtained the statements in violation of his right to counsel under Article I,
Section 7 of the Minnesota Constitution. Second, he argued that his statements were
inadmissible under State v. Bailey, 677 N.W.2d 380 (Minn. 2004). Third, he argued that
his statements were involuntary.
At a suppression hearing, the district court heard testimony from Ezeka and both
investigators and also admitted a video recording and transcript of the January 2017
custodial interrogation. After considering the
motion to suppress as to the post-Miranda statements.

§ 609.05, subd. 1 (2018), which articulates the aiding and abetting theory of criminal
liability. For more than 50 years, Minnesota has recognized
not a separate substantive offense, but rather
See, e.g.,
Dobbins v. State
theory of criminal liability, not
State
v. Britt
ere is no separate crime of criminal
liability for a crime committ
2

Ezeka also argued that the district court should suppress his pre-Miranda statements
and his statements from June 2, 2016. Because the court suppressed these statements,
neither of these arguments are relevant on appeal.
7

App. 8

The court found that immediately before the January 2017 custodial interrogation,
Ezeka had been out of custody for 24 days. Relying on Maryland v. Shatzer, 559 U.S. 98,
110 (2010), and State v. Scanlon, 719 N.W.2d 674, 683 (Minn. 2006), the court concluded
that the June 2016 invocation
2017 custodial interrogation. With re

Miranda

statements were inadmissible under Bailey, the court began its analysis by quoting the
following passage from the case:
[W]here a suspect is apprehended under coercive circumstances, is subjected
to lengthy custodial interrogation before being given a Miranda warning,
does not have the benefit of a significant pause in the interrogation after the
Miranda warning is given, and essentially repeats the same inculpatory
statements after the Miranda warning as before, the statements made after
the Miranda warning are inadmissible.
Bailey, 677 N.W.2d at 392. The dist
materially distinguishable from the facts of Bailey because the investigators did not subject
Ezeka to a lengthy custodial interrogation before the Miranda warning was given, and
because Ezeka did not simply repeat the same inculpatory statements after the Miranda
warning. Finally, the court concluded that E
l and encouraging during the interview, and
never threatening or coercive in their deme

so found that Ezeka

contributed to the 13-minute delay in the reading of the Miranda warning and that the
investigators did not deprive Ezeka of any physical needs.
to trial. During the trial, Scott testified that he called Ezeka
and ordered the death of D.G. Without objection, the district court instructed the jury that,

8

App. 9

in connection with the charge of first-degree premeditated murder, the State was required
someone he intentionally aided and abetted,
acted with premeditation,

d at trial indicated that Ezeka

was acting as a principal when he fired the shots. Also without objection, the district court
failed to instruct the jury on corroboration of accomplice testimony. During closing
argument, the prosecutor emphasized Scott's involvement in
jury found Ezeka guilty as charged, and the district court convicted
him of all counts with the exception of two lesser-included offenses.
The district court imposed separate sentences for each victim. For the first-degree
premeditated murder of Beeks, the court imposed a sentence of life without the possibility
of release. For the attempted first-degree premeditated murder of D.G., the court imposed
a 360-month sentence. And, for the second-degree assault comm
granddaughter, the court imposed a 36-month sentence. The court ordered that all three
sentences be served consecutively.
ANALYSIS
On appeal, Ezeka makes five arguments. First, he asks us to hold that an invocation
of the right to counsel under Article I, Section 7 of the Minnesota Constitution provides
greater protection than an invocation of the right to counsel under the Fifth Amendment to
the United States Constitution, which ends after the suspect has been out of custody for
14 days. Second, he argues that the district court abused its discretion when it denied his
motion to suppress his post-Miranda statements. Third, he argues that the district court
committed plain error in its jury instructions on the elements of first-degree premeditated
9

App. 10

murder. Fourth, he argues that the district court erred by its failure to instruct the jury on
accomplice testimony.

Fifth, he argues that his 360-month sentence for attempted

first-degree premeditated murder was error because it exceeded the statutory maximum
sentence. We consider each argument in turn.
I.
Ezeka asks us to hold that an invocation of the right to counsel under Article I,
Section 7 of the Minnesota Constitution provides greater protection than an invocation of
the right to counsel under the Fifth Amendment to the United States Constitution, which
ends after the suspect has been out of custody for 14 days. We decline to do so.
The interpretation and application of the Minnesota Constitution is a legal question,
which we review de novo. State v. Castillo-Alvarez, 836 N.W.2d 527, 534 (Minn. 2013).
onstitutions are a separate source
state courts may reach conclusions based on their state constitutions, independent and
Kahn v. Griffin, 701 N.W.2d 815, 824 (Minn. 2005).
our state constitution as providing more
protection for individual rights than does the federal constitution unless there is a principled
Id. Because we favor uniformity with the federal constitution, we will not
the Constitution merely because we desire a
different result. Id.
Under the Fifth and Fourteenth Amendments to the United States Constitution,
procedural safeguards protect an individual who is in custody and subjected to questioning.
any questioning that he has the right to remain
10

App. 11

silent, that anything he says can be used against him in a court of law, that he has the right
to the presence of an attorney, and that if he cannot afford an attorney one will be appointed
for him prior to any questi

Miranda v. Arizona, 384 U.S. 436,
an individual must unequivocally and

unambiguously invoke his or her right to counsel before the police are required to stop the
questioning. See Davis v. United States

(1994). Under our

constitution, however, when an individual makes an equivocal request for counsel,
cept as to narrow questions designed to
See State v. Ortega, 813 N.W.2d 86,
98 (Minn. 2012) (citation omitted) (internal quotation marks omitted).

custodial interrogation, a valid waiver of that right cannot be established by showing only
that he responded to further police-initiated custodial interrogation even if he has been
Edwards v. Arizona, 451 U.S. 477, 484 (1981
request for counsel does not forever bar police questioning. See Shatzer, 559 U.S. at
Edwards prohibition of custodial
interrogation of a particular su

avoid an eternal prohibition,

the Supreme Court held in Shatzer that once an individual has been out of custody for
14 days or longer, the right to counsel must be unequivocally and unambiguously invoked
again, even if properly invoked previously. Id. at 110. The Supreme Court reasoned that
t reacclimated to his normal life, to consult
with friends and counsel, and to shake off any residual coercive effects of his prior
11

App. 12

Id. In other words, when an individual who was in custody and cut off from his
or her normal life is out of police custody for a period of time, a 14-day break in questioning
communicate with police
Id. at 106 (quoting Patterson v. Illinois, 487 U.S. 285, 291 (1988)).
At this point, the likelihood of a coerced confession is greatly reduced. See id.
Ezeka asks us to provide greater protection for the people of Minnesota than that
provided by the federal constitution and hold that a 14-day break in custody does not end
ght to counsel under Article I, Section 7 of
the Minnesota Constitution. According to Ezeka, such a holding is necessary because the
Shatzer rule is unsound. More specifically, he argues that the 14-day period is arbitrary
and that a totality-of-the-circumstances test is necessary to ensure that any residual
coercive effects of a prior custody have been shaken off. We disagree.
well-reasoned, including its

We consider the Shatzer

justification for rejecting a totality-of-the-circumstances test.3 Specifically, the Shatzer

cers need to know, with certainty and beforehand, when
Id. at 110. We agree with that reasoning.
Consequently, in this context, there is no principled basis to construe the right to
counsel under Article I, Section 7 of the Minnesota Constitution as providing greater

3

The majority of states have adopted and applied the 14-day rule under Shatzer. See,
e.g., State v. Yonkman, 297 P.3d 902, 904 (Ariz. 2013); Smith v. Commonwealth,
48 (Kan. 2017); State v. Wessells, 37 A.3d 1122, 1130 (N.J. 2012);
State v. Edler, 833 N.W.2d 564, 566 (Wis. 2013).
12

App. 13

protection than the right to counsel under the Fifth Amendment to the United States
Constitution. Additionally, our conclusion is consistent with our case law, both before and
after the 2010 Shatzer decision. See Scanlon, 719 N.W.2d at 683 (holding that a break in
custody of several months betw

of the right to counsel and

his subsequent statements meant that he was not protected from interrogation under the
Edwards rule); see also State v. Borg, 806 N.W.2d 535, 546 n.3 (Minn. 2011) (relying on
the 14-day rule, post-Shatzer
We therefore hold that a 14-day break in custody ends the protecti
invocation of the right to counsel under Article I, Section 7 of the Minnesota Constitution.
II.
We next consider whether the district court abused its discre
pretrial motion to suppress his post-Miranda statements. For the reasons that follow, we
conclude the district court did not abuse its discretion.
When reviewing a pretrial order denying a motion to suppress, we review the
rror and its legal determinations de novo. State
v. Edstrom, 916 N.W.2d 512, 517 (Mi
it does not have evidentiary support in the record or if it was induced by an erroneous view
State v. Roberts, 876 N.W.2d 863, 868 (Minn. 2016). When a defendant
ndependently determine, on the basis of all
the factual findings that are not clearly erroneous, whether or not the confession was
State v. Anderson, 396 N.W.2d 564, 565 (Minn. 1986).

13

App. 14

As discussed above, there is no principled basis to construe the right to counsel
under Article I, Section 7 of the Minnesota Constitution as providing greater protection in
this context than the right to counsel under the Fifth Amendment to the United States
Constitution, which ends after the suspect has been out of custody for 14 days. The district
stody for 24 days before the January 2017
interrogation is not clearly erroneous. Because this break in custody exceeds 14 days, we
conclude that the district court did not abuse its discretion when it determined that the
of his right to counsel had ended before the January 2017
interrogation.
But, Ezeka argues, his post-Miranda confession was also inadmissible under Bailey,
Bailey is misplaced. In Bailey, we explained that,
coercion or other circumstances calculated to undermine the
Miranda to
hold that the investigatory process is so tainte

voluntary and informed

waiver is ineffective for some indetermin

Oregon

v. Elstad, 470 U.S. 298, 309 (1985)).

In Bailey, we noted that the pre-Miranda
Id.

Here, the district court found there was no actual coercion during the pre-Miranda
portion of the January 2017 custodial interrogation. After reviewing the video recording
and transcript of the custodial interrogation, we
regarding the absence of actual coercion are not clearly erroneous because they have
evidentiary support in the record. This case is therefore materially different from Bailey.
14

App. 15

Rather than Bailey, the more apposite case is State v. Scott, 584 N.W.2d 412
(Minn. 1998) (discussed in Bailey

There, we said that the

defendant

and confessing after he was given the

requisite Miranda

ded to [15 minutes of] unwarned
Id. at 420. The facts here are comparable to what happened

in Scott. Ezeka responded to 13 minutes of unwarned, noncoercive questioning. By
comparison, Scott responded to 15 minutes of unwarned, noncoercive questioning. See
Scott, 584 N.W.2d at 415. Moreover, like the defendant in Scott, Ezeka did not make any
incriminating statements during the pre-Miranda portion of the January 2017 custodial
are materially indistinguishable

interrogation. See id.

from the facts of Scott, the admission of his post-Miranda statements did not violate Bailey.
See 677 N.W.2d at 392.
Miranda statements were not
tion in determining whether a confession is voluntary is
State v. Nelson,
886 N.W.2d 505, 509 (Minn. 2016) (quoting State v. Farnsworth, 738 N.W.2d 364, 373
(Minn. 2007)). Our inquiry is

ributed to the utterance of
er with other circumstances

surrounding the interrogation, were so coercive, so manipulative, so overpowering that [the
defendant] was deprived of his ability to make an unconstrained and wholly autonomous
State v. Pilcher, 472 N.W.2d 327, 333 (Minn. 1991).
maturity, intelligence, education, experience,
15

App. 16

and ability to comprehend; the nature of the interrogation; the lack of or adequacy of
warnings; the length and legality of the detention; and whether the defendant was deprived
of physical needs or denied access to friends. Farnsworth, 738 N.W.2d at 373.
According to Ezeka, the following factors demonstrate that his post-Miranda
statements were not voluntary:4 he was 20 years old at the time of the interrogation; he
stuttered until eleventh grade; his family experienced police harassment in the past; he was
unfamiliar with custodial interrogation; the investigators who conducted the January 2017
custodial interrogation ignored his June 2016 request for counsel; the investigators also
suggested that, if he talked, he might receive a more lenient sentence and the shootings
directed at his house might end; and he was deprived of his physical needs as evidenced by
the fact that he urinated into a trashcan before the investigators entered the room.
The record shows that Ezeka was 20 years old at the time of the January interview.
Although he was a young man, he was not a child. See Pilcher
old, high school educated, and had prior
experience with the crim

The record also suggests that Ezeka was

familiar with the collateral consequences of a felony conviction, and his demeanor in the
interrogation suggests that he was aware of

See Nelson,

886 N.W.2d at 510; see also Pilcher, 472 N.W.2d at 334. Although Ezeka makes credible
points about his family history and his experiences with law enforcement, particularly the

4

A challenge to the voluntariness of a confession is not the same as a challenge to
the waiver of Miranda rights. Ezeka does not claim that his Miranda waiver was invalid
and we observe that, during the January 2017 custodial interrogation, Ezeka was advised
of his Miranda rights, indicated he understood his rights, and agreed to waive those rights.
16

App. 17

investigators involved in this case, we cannot say that these factors make his statement
involuntary.
As for the nature of the interrogation, we conclude that the investigators did not
engage in coercive tactics. The first allegedly coercive tac
sentence would be more lenient if he confessed.

The district court found that the

informed him of the maximum sentence for the charges. Ezeka argues that, in informing
him of the 60-year maximum sentence, the investigators implied that there was room for
leniency in the sentence, and that a confession might have consequences for his sentence
and trial.
of the possible charges or evidence
Pilcher
suppression of [a] statement when they use promises, express or implied, in seeking to
State v. Thaggard, 527 N.W.2d 804, 811
(Minn. 1995); see also State v. Jungbauer
all offers to help are coercive promises, however, and promises do not render a confession
involuntary in all cases. See generally Farnsworth
cases); Thaggard, 527 N.W.2d at 811.
In State v. Clark, investigators said they
might not receive life without parole if he
confessed. 738 N.W.

investigators appealed to the
Id.
17

App. 18

confession involuntary. Id. at 336. Similarly, in State v. Nelson, we concluded that appeals
and personal integrity were not coercive. 886 N.W.2d at
510. We found especially persuasive that
ss until he was confronted with the likelihood
Id.
There are strong parallels to Nelson and Clark here.

Most importantly, the

investigators did not promise that Ezeka would be charged with a lesser offense or imply
that the investigators could control the prosecution. See Clark
important to distinguish between comments identifying the potential sentences imposed for
different degrees of murder and express promises that a defendant will be charged with a
lesser offense in exchange for his confession.
See Nelson, 886 N.W.2d at 510; see
also Pilcher, 472 N.W.2d at 334 (concluding that the defendant was not fooled by the
empathic approach because he continued to

Applying the principles that we articulated in Nelson and Clark, we conclude that
charges were not coercive. The statements
were used to encourage Ezeka and appeal to his conscience, but they were not the kind of
promises that would make an innocent person confess. See State v. Slowinski, 450 N.W.2d
107, 112 (Minn. 1990).

18

App. 19

The second allegedly coercive tactic was impl
might be affected by his decision to confess. The district court found that, during the

anation from [Ezeka] might dissuade those
involved from continuing to
Regardless of the propriety of the investigat

See Farnsworth, 738 N.W.2d at 374. When the investig
context, the record reflects that
Ezeka immediately replied,

sic]

at 375 (finding a confession was

See id.
prior experience gave him

reason to disbelieve that the police had the power to carry out their threats); see also State
v. Spaeth, 552 N.W.2d 187, 195 (Minn. 1996). It is unreasonable to conclude that Ezeka
was coerced into making a confession by an inve
The record simply does not support the conc

he did not believe.
ill was overborne by

these statements. See Nelson, 886 N.W.2d at 509.
ther than asking to be
lue. The record does not show that Ezeka
relieved himself in the trash can because police refused a request to use the restroom.
Rather, the video shows that Ezeka urinated into the trash can within seconds of entering
and being left alone in the interrogation room
needs. See, e.g., Nelson, 886 N.W.2d at 511; State v. Camacho, 561 N.W.2d 160, 170
19

App. 20

(Minn. 1997); State v. Moorman, 505 N.W.2d 593, 600 (Minn. 1993) (concluding that

unaware of it and did not use it to co
ngs, which are not clearly erroneous, and
o coercive, so manipulative, [or] so
will was overborne when he confessed. See
Nelson, 886 N.W.2d at 509; Pilcher, 472 N.W.2d at 333. For these reasons, the district
court did not abuse its discretion when it de
III.
Ezeka also argues the district court committed an error that was plain when it
instructed the jurors on the elements of premeditated murder. We disagree.
Without objection, the district court instructed the jury that, in connection with the
charge of first-degree premeditated murder, the State was required to prove, among other
ntionally aided and abetted, acted with
Ezeka, these instructions misstated the law because they
permitted the jury to find that the premeditation element was satisfied if the jury believed
Freddy Scott acted with premeditation. Ezeka further argues that the impact of this
misstatement of law was amplified by th

A defendant forfeits appellate review of a jury-instruction issue when he fails to
object to the instruction in the district court. State v. Zinski, 927 N.W.2d 272, 275
(Minn. 2019). But, under the plain-error standard, we have the discretion to consider a
20

App. 21

forfeited issue if the defendant establishes (1) an error, (2) that is plain, and (3) that affects
his substantial rights. Id. The error requirement is satisfied when the jury instructions
State v. Smith
(Minn. 2004). An error is plain

State v. Burg, 648 N.W.2d

673, 677 (Minn. 2002) (quoting United States v. Olano, 507 U.S. 725, 734 (1993)). A

giving of the instruction in question had a

State v.

Gomez, 721 N.W.2d 871, 880 (Minn. 2006)). If the defendant establishes all three
it seriously affects the fairness, integrity,
State v. Mouelle, 922 N.W.2d 706, 718
(Minn. 2019).
A brief discussion of aiding and abetting liability is necess
claim that the jury instructions materially misstate the law. Ordinarily, a person is
Proof of Facts
§ 1 (1976). But the aiding and abetting statute, Minn. Stat. § 609.05, subd. 1 (2018),
is criminally liable for a crime committed by another if the person
intentionally aids, advises, hires, counsels, or conspires with or otherwise procures the
other to commit the crime
when referring to the person who committed the crime and the word
referring to the person who inte
See State v. Huber, 877 N.W.2d 519, 524 (Minn. 2016).
State v. DeVerney, 592 N.W.2d
21

837, 846 (Minn. 1999). Instead, it is

App. 22

Dobbins v. State,

her words, section 609.05 makes accomplices
criminally liable as principals. State v. Lee, 683 N.W.2d 309, 315 (Minn. 2004); State v.
King, 622 N.W.2d 800, 804 (Minn. 2001). There is no need to rely on section 609.05 when
the criminal act is committed by the accused because a person is directly liable for his or
her actions as a principal.
After reviewing the jury instructions as a whole, we conclude that the district court
erred when it instructed the jury on aiding and abetting liability. There was no evidence
trial was that Ezeka was the

that Ezeka acted as an accomplic

shooter and, therefore, directly liable for his actions as a principal. Consequently, there
was no need for the district court to instruct the jurors on an aiding and abetting theory of
criminal liability.
In addition, the district court used confusing and misleading language to describe
this unnecessary theory of criminal liability. For example, in instructing the jurors that the
intentionally aided and abetted, acted with
e jury to find Ezeka
guilty of premeditated murder if the State proved either that Ezeka fired the shots with
premeditation or that Scott ordered the hit with premeditation. To be clear, if Ezeka fired
the shots with premeditation, his liability as the principal could have been extended to Scott
under an aiding-and-abetting theory of criminal liability because Scott procured Ezeka to
commit the crime. See Minn. Stat. § 609.05, subd. 1. Bu

22

App. 23

the hit cannot be used to satisfy a necessary element of the pr
premeditation in firing the shots.
Having concluded that the district court improperly provided the jury an aiding and
abetting instruction, we consider whether the error was clear and obvious. In two cases
within the last decade, we have discouraged instructions that combine accomplice liability
and the underlying elements (commonly refe

Huber,

to separately instruct the jury on accomplice liability and
on the underlying elements of the substantive o

at 524 n.3. And in

State v. Bahtuoh
accomplice liability and the underlying substantive offense because of the different
state-of-mind requirements for criminal liability as a principal rather than as an
815 n.1 (Minn. 2013). But discouraging words do not
create a well-established rule. Because the di
violate a well-established rule, we conclude that the error was not plain. We take this
opportunity, however, to emphasize that district courts must separately instruct the jury on
accomplice liability and on the underlying elements of the substantive offenses. The era
of hybrid instructions has ended.
IV.
Ezeka argues that a
instruct the jurors on uncorroborated accomplice testimony
argues that because Scott was an accomplice, the district court was required to instruct the
jury that it could not convict Ezeka ba

rroborated testimony.
23

App. 24

Ezeka failed to request, or object to the absence of, an accomplice-testimony jury
instruction. We therefore review the failure to give the instruction under the plain-error
standard. State v. Barrientos-Quintana, 787 N.W.2d 603, 611 (Minn. 2010). As above,
Ezeka must establish (1) an error, (2) that is plain, and (3) that affected his substantial
rights. See Zinski
seriously affects the fairness, integrity, or public reputation of judi
Mouelle, 922 N.W.2d at 718.
failure to provide an accomplice testimony
jury instruction was plain error under our case law. See State v. Strommen, 648 N.W.2d
681, 689 (Minn. 2002). We therefore turn
substantial rights.

Ezeka bears the burden of showing th

See State v. Reed

nn. 2007). In determining

whether a defendant has met this burden, we consider whether the jury relied on
corroborating evidence and not just the accomplice testimony standing alone. We conduct
an independent review of the record and consider all relevant factors that may bear on the
question. Our recent cases have highlighted four non-exclusive factors that we consider as
part of that review. See, e.g., State v. Horst, 880 N.W.2d 24, 38 (Minn. 2016) (considering
the accomplice was corroborated by significant evidence,
whether the accomplice testified in exchange for leniency, whether the prosecution
g argument, and whether the court gave
the jury general witness cred

State v. Jackson, 746 N.W.2d
24

894, 899 (Minn. 2008)); State v. Lee

App. 25

based on evidence in the record, closing argument, and other instructions that an
beyond a reasonable doubt that
an omitted accomplice instruction

premeditation and intent to kill D.G. Accordingly, Ezeka asserts the failure to instruct the
jury that it could not rely solely on Scot
convicted Ezeka in violation of Minn. Stat
upon the testimony of an accomplice, unless it is corroborated by such other evidence as
tends to convict the defendant of the commission

premeditation and intent.5 Cellphone records showed that Scott called Ezeka just before
the shooting and that he was in the same area as Ezeka during and after the shooting.
e leaving the crime scene immediately after
the shots were fired. Ezeka also corroborat
his January 2017 interrogation that he received a phone call from Scott regarding D.G., left
his house with a handgun, fired nine bullets at
after the shooting. Further, the jury was instructed on the general credibility of witnesses

5

need not, standing alone, be sufficient to support a
d point to the guilt
Reed, 737 N.W.2d at 584 (quoting State v.
Sorg, 144 N.W.2d 783, 786 (Minn. 1966)). The eviden
confidence in the truthfulness of
State v. Clark, 755 N.W.2d
241, 256 (Minn. 2008).
25

App. 26

and the jury knew that Scott was an accomplice who received a plea deal in exchange for
his testimony. Viewing the record together with all relevant factors, we conclude that
Ezeka failed to show a reasonable likelihood that the failure to provide an
accomplice-testimony jury instruction had a significant effect on
evidence reasonably supports a conclusion that the jury believed, and relied upon, more
lthough the district court committed an error
that was plain when it failed to provide an accomplice-testimony jury instruction, the error

V.
The district court sentenced Ezeka to 360 months imprisonment on the conviction
of attempted first-degree premeditated murder. The parties agree that this was error
because the statutory maximum for this offense is 240 months. See Minn. Stat. § 609.17,
attempts to commit a crime may be sentenced
as follows: (1) if the maximum sentence provided for the crime is life imprisonment, to

to the district court for resentencing on this offense.
CONCLUSION
For the foregoing reasons, we affirm Ezek
attempted first-degree premeditated murder, and remand for resentencing on that offense.
Affirmed in part, reversed in part, and remanded

26

App. 27

CONCURRENCE & DISSENT
ANDERSON, Justice (concurring in part and dissenting in part).
The issue presented in this appeal is how best to safeguard individual liberty when
a suspect is detained. Because appellant Joshua Ezeka was out of custody during the 14
days prior to the custodial interrogation, I
protection of his earlier invocation of the right to counsel had ended. But because I
Miranda statements were obtained using unconstitutional
coercive custodial interrogation methods, I respectfully dissent.
The Fifth Amendment, as applied to Minnesota through the Due Process Clause of
the Fourteenth Amendment, protects a defendant from self-incrimination. See U.S. Const.
amends. V, XIV; see also Miranda v. Arizona, 384 U.S. 436, 442 (1966). When the police
interrogate a person who is in cu

rned that he has a right to

remain silent, that any statement he does make may be used as evidence against him, and
that he has a right to the presence of an attorney, either retain

Miranda,

384 U.S. at 444; see also State v. Walsh, 495 N.W.2d 602, 605 (Minn. 1993) (requiring a
Miranda warning for custodial interrogations). This

underlying purpose

of Miranda was to stop certain coercive practices us
State v. Champion, 533 N.W.2d 40, 43 (Minn. 1995). Any waiver of this right by an
Miranda, 384 U.S. at
444. For a statement to be voluntarily given, a person must give those statements without
eceit, and stress-induc
Pilcher, 472 N.W.2d 327, 333 (Minn. 1991).
C/D-1

State v.

App. 28

I first turn to a review of the district

confession, which are reviewed under the clearly erroneous standard.
Anderson

See State v.

factual finding is clearly erroneous if

it does not have evidentiary support in the record or if it was induced by an erroneous view
State v. Roberts, 876 N.W.2d 863, 868 (Minn. 2016). When reviewing
confessions, a reviewing court considers all the factual findings that are not clearly
erroneous and independently determines whether a confession was voluntary. Anderson,
396 N.W.2d at 565. I then consider the
addressing why a new trial is necessary.
I.
I begin my analysis by considering whether any of the di
clearly erroneous. After reviewing the record, I conclude that two of the findings made by
e delay in providing Ezeka with the Miranda warning
and those related to the demeanor of the
The first factual error was the finding of the district court that Ezeka caused the
delayed reading of the Miranda warning. This finding is not supported by the record.
During the 13 minutes in which Ezeka is interrogated prior to being read his Miranda
warning, every time the first investigator indicates that he intends to read the Miranda
warning, it is the second investigator, not Ezeka, who interjects. For example, when the
cond investigator interrupts,
saying:

C/D-2

App. 29

Before you read that, we, we know wh
house has been shot up twice last weekend. Maybe, maybe some admi,
nna see your mom get killed or your
dad get killed because th
At a minimum, the officers used their team interrogation tactics to prolong the police
interview without reading Ezeka his Miranda warning. The district
that Ezeka was the cause of the delay of his Miranda warning is clearly erroneous.
Second, the district court erred when it fo
and encouraging during the interview, and never threatening or coercive in their
the record. For the first 13 minutes of the
interrogation before reading Ezeka his Miranda rights, the investigators used body
language, conduct, false legal advice, and the nature of custodial interrogation to create a
coercive atmosphere. The second investigator frequently leans into Ezeka, and in response
Ezeka is seen showing common signs of stress, such as crossing his arms, hunching over,
covering his face, and fi
The investigators provided Ezeka with the false legal advice that speaking with them
might be barred from
testifying at trial.1 This conduct by the investigator
that contributes to the coercive nature of
custodial interrogations. See Miranda, 384 U.S. at 455. After explaining that he was facing
up to 60 years in prison, the investigators also suggested that an admission could lead to

1

t of a criminal defendant to testify is a
personal right and the decision whether to testify is ultim
State v.
Smith, 299 N.W.2d 504, 506 (Minn. 1980).
C/D-3

App. 30

leniency from the prosecutor. The investigators repeatedly told Ezeka that they did not
want to see his parents killed and that an admission might end the drive-by shootings at his
family home and the threat to the lives of his parents. The coercive effect of repeated
suggestions that a confession could lead to the end of drive-by shootings at his family home
and the threat to the lives of his parents cannot be overstated. Finally, the fact that Ezeka
was questioned in the same room (which now smelled of urine) by the same investigators
who disregarded his previous request for counsel added to the coercive nature of the
unwarned portion of the January 2017 custodial interrogation. In light of these facts, the
of the encounter and the demeanor of the
investigators were clearly erroneous.
These clearly erroneous findings formed the foundation of th
conclusion that the unwarned portion of the custodial interrogation did not create such a
borne at the time he made his confession.
s conclusion, and similarly the c
II.
I next turn to the question of whether, under the totality of the circumstances,
linquishment of the right must have been
voluntary in the sense that it was the product of a free and deliberate choice rather than
Moran v. Burbine, 475 U.S. 412, 421 (1986).
The key question is whether the conduct of the investigators prior to administering
the Miranda

Miranda confession. The court concludes that

C/D-4

App. 31

because Ezeka made no incriminating statements to police before he was read his Miranda
rights, his confession was voluntary. This reasoning is flawed for two reasons.
I first conclude that actual coercion occu
interrogation. The failure of the investigators to administer a Miranda warning, by itself,
ements were actually coerced. Oregon v. Elstad, 470 U.S.
ure reveal a police

298, 310 (1985). But when, as here, events
strategy adapted to undermine the Miranda

ssion is the product of

actual coercion. Missouri v. Seibert, 542 U.S. 600, 616 (2004). Important to my analysis
oduced by false legal advice and repeated
suggestions that an admission might end the drive-by shootings at his family home and the
threat to the lives of his parents. These circumstances, along with the deliberate delay,
created actual coercion.
Upon entering the interrogation room, the investigators set the tone by reminding
Ezeka of their last encounter, which had occurred six months before, in the same
interrogation room, and with the same investigators. This context is relevant because,
when Ezeka previously met with the investigators, he requested an attorney and informed
the investigators that his family had experienced negative encounters with police in the
past. Rather than ceasing the interrogation, the investigators disregarded his invocation of
his right to counsel and continued questioning him. The investigators reminded Ezeka of

after reminding Ezeka of their previous interaction, one of the investigators attempts to
begin to read Ezeka his Miranda rights. The second investigator quickly interrupts the first
C/D-5

App. 32

investigator and, while leaning toward Ezeka, implores Ezeka to confess. Just as in the
first interrogation where the investigators circ
from the start of the interrogation, using a question-first-inform-later strategy, the
investigators failed to give the Miranda warning in a timely and appropriate fashion.
While deliberately withholding the Miranda warning, the investigators then gave
false legal advice to Ezeka: that he may be prevented from testifying at trial and therefore
should confess to poli
The interrogation tactics used by investigators are not new and is the type of conduct that
the Supreme Court sought to deter in Miranda. The Miranda
procedures fail to produce the needed result, the police may resort to deceptive stratagems
such as giving false legal advi
on individual liberty and trades on

Id.; see also United States

v. Anderson

(holding that the government agent

coerced a defendant by giving false legal advi
Miranda the [Supreme] Court expressly disapproved [of] deceptive stratagems such as
that the accused was threatened, tricked,
or cajoled into a waiver will, of course, show that the defendant did not voluntarily waive
Miranda, 384 U.S. at 476)).
After giving false legal advice, the investigators also repeatedly told Ezeka that they
did not want to see his parents killed and that a confession from Ezeka might end the driveby shootings at his family home and the threat to the lives of his parents. The court waves

C/D-6

App. 33

because there is no reason to

think that Ezeka believed the investigators. But threats and promises by police are often
more coercive when directed at someone related to the accused, rather than direct threats
or promises to the accused. Compare Lynumm v. Illinois,
(police threats that the suspect

m her invalidated confession),

and State v. Anderson, 298 N.W.2d 63, 65 (Minn. 1980) (noting that the promise to free a
relative in exchange for a confession may render a confession involuntary), with State v.
Nelson, 886 N.W.2d 505, 510 (Minn. 2016) (holding that vague appeals by police to a
and State v. Beckman,
354 N.W.2d 432, 437 (Minn. 1984) (holding that the police st
would be brought to the trial

lidate confession). Importantly
er helped Ezeka understand his rights, see State v.

Slowinski, 450 N.W.2d 107, 111 (Minn. 1990), nor
see State v. Farnsworth, 738 N.W.2d 364, 374 (Minn. 2007); nor
it of being represented by an attorney, see State
v. Spaeth, 552 N.W.2d 187, 195 (Minn. 1996). Rather, advanced today is the notion that
only certain promises made by
be coercive.
The investigators repeatedly delayed and stalled giving the Miranda warning, using
threats, conduct, false promises, and coercive police tactics until Ezeka confessed. The
totality of the circumstances supports the conclusion that actual coercion by the
investigators occurred.
C/D-7

App. 34

Second, I conclude that the court misunderstands the relevance of the timing of
events here. The existence of actual coercion during an unwarned portion of a custodial
interrogation fundamentally alters the analysis that is applied in determining whether
post-Miranda statements are admissible. The Supreme Court acknowledged the competing
analyses in Oregon v. Elstad. The Elstad Court explained that when the unwarned
is actually coerced, the time that passes between confessions, the change in
place of interrogations, and the change in identity of the interrogators all bear on whether
that coercion has carried over into the seco
added). By contrast, when

unaccompanied by any actual

coercion or other circumstances calculated to undermine the su
Miranda to hold that the investigatory
tary and informed waiver is ineffective for
Id. at 309 (emphasis added). In other words, a voluntary and
informed waiver of Miranda rights cleanses the taint of an unwarned statement when the
statement was unaccompanied by any actual coercion or other circumstances calculated to
to exercise his free will.
Miranda statements were
admissible, a reviewing court should consider the time that passed between the unwarned
statement and the post-Miranda confession, the change in place of interrogations, and the
change in identity of the interrogators. The post-Miranda statements directly followed the
unwarned, coercive custodial interrogation, and there was no change in the place of

C/D-8

App. 35

interrogation or the identity of the investigat
unlawful coercive police tactics.

The court does not discuss or apply Elstad; instead, it applies the inapplicable test
for unwarned statements that are unaccompanied by actual coercion. But even if this were
the proper test, relying on State v. Scott, 584 N.W.2d 412 (Minn. 1998), to justify the
misplaced. The unwarned questioning of Ezeka was not the
ning of the defendant in Scott. See 584 N.W.2d at 419. In a
13-minute period, the investigators here (1) remind Ezeka of his previous encounter in
which the investigators ignored his constitutionally protected request for counsel; (2) offer
false legal advice; and (3) callously discuss the drive-by shootings occurring at his family
home, suggesting that his confession may prevent future shootings. The nature of the
questioning by the investigators, not its brevity, controls in this case.
I, therefore, conclude that the district
suppress and admitting the post-Miranda statements into evidence at trial.
III.
Miranda statements were erroneously
admitted at trial, I must next determine whether their admission entitles Ezeka to a new
ements to police at trial in violation of Miranda
does not require a new trial if the state can show beyond a reasonable doubt that the error
State v. Farrah, 735 N.W.2d 336, 343 (Minn. 2007). An error is harmless

Id.

the error enough evidence exists to support
C/D-9

App. 36

State v. Juarez, 572 N.W.2d 286, 292 (Minn. 1997). Independent

and physical evidence placing the defendant
at the scene. State v. Day

2000). But the mere presence

of some independent evidence is not enough to conclude that the

Generally, when a confession was erroneously admitted at trial, it constitutes
harmful error because of th

State v.

Chavarria-Cruz, 784 N.W.2d 355, 365 (Minn. 2010). For example, in Chavarria-Cruz,
the defendant was convicted of second-degree murder; he appealed the verdict, arguing
that his confession should have been suppressed. Id. at 357, 360. Although a statement
from a witness implicated the defendant in the murder and the State presented other
evidence of his guilt, the admission of his statement was not harmless beyond a reasonable
doubt.

Id. at 365.

Here, the State argues th
Miranda statements. In support of its

argument, the State relies on the following evidence: (1) the photographs of Ezeka
verified that he is a member of the Lows
gang; (2) the cell phone data, which confirmed that Freddy Scott called Ezeka before and
after the shooting and placed Ezeka near the location of the shooting at the time of the
event; (3) the surveillance camera footage that captured images of a vehicle driven by Scott
leaving the crime scene immediately after the shooting; (4) the forensic evidence that
showed the bullets recovered fro

t, along with other bullets
C/D-10

App. 37

found at the crime scene, were all fired from the same firearm; and (5) the ShotSpotter
audio recording proving that nine shots were fired.2 Although this evidence arguably
us is not whether, without the error, there
exists enough evidence to support the convictions. Instead, the question is: What effect
See Farrah, 735 N.W.2d at 343. In light of the
Miranda statements, I cannot conclude that
ous admission of the
statements. See Chavarria-Cruz, 784 N.W.2d at 355. Ezeka is therefore entitled to a new
trial.
For the foregoing reasons, I would reverse the judgment of conviction and remand
to the district court for a new trial. I respectfully dissent.

HUDSON, Justice (concurring in part and dissenting in part).
I join in the concurrence and dissent of Justice Anderson.

2

The number of shots fired is a relevant fact to establish the nature of the killing,
which is one of three categories of evidence used to infer premeditation. See State v.
Holliday
(stating that the number of times the
defendant uses the weapon is considered to determine his or her intent); State v. Goodloe,
(Minn. 2006) (same).

C/D-11

App. 38

CONCURRENCE & DISSENT
THISSEN, Justice (concurring in part and dissenting in part).
This is a tragic case. Escalating mutual gang retribution left an innocent victim,
Birdell Beeks, dead from an act of senseless violence. This case cries out for justice for
Ms. Beeks and her family. But part of justice is ensuring that it is reached in a fair and
constitutional manner that respects the individual liberty rights that we all cherish. In the
midst of our fight for American values during World War II, we stated that the question
involve the guilt or innocence of the defendant. It concerns only his
constitutional rights. The law of the land is the only yardstick which can be allowed to
State v. Kelly, 15

gauge the liberties of citizens, whatever

N.W.2d 554, 556 (Minn. 1944); see generally Brown v. Mississippi, 297 U.S. 278, 285
in establishing its policy is the freedom of a
constitutional government and is limited by th

Miranda rights in June 2016 did not carry over to prevent
the police from interrogating him again in January 2017. But I would rest that conclusion
on our decision in State v. Scanlon, 719 N.W.2d 674 (Minn. 2006) (holding that a defendant
who was out of custody for months between
Edwards

tablishing a bright-line rule).

I would not unnecessarily establish a bright-line 14-day expiration date for properly
invoked Miranda rights. I disagree with the majority
was voluntary.

I conclude that his confession was the result of improper and
C/D-1

App. 39

unconstitutional police coercion. Because I conclude that Ez

n should be

reversed and the case remanded for a new trial, I would not reach the jury instruction issues,
although it is clear that the district court should have given an accomplice corroboration
instruction. Finally, I agree with the court that the district court erred by sentencing Ezeka
to more than the statutory maximum sentence on the attempted-premeditated-murder
conviction.
I.
Ezeka argues that his January 2017 statement to police should be suppressed
because police reinitiated interrogation after he had invoked his Miranda rights to silence
and to the advice of an attorney during his June 2016 interrogation. Consistent with the
unique values of Minnesotans and the history of our state, we have held that our Minnesota
Constitution provides more protection to individual liberty than the United States
Constitution in precisely the context of continuing police interrogation after the invocation
of Miranda rights. Compare State v. Ortega, 813 N.W.2d 86, 98 (Minn. 2012) (noting that
d States Constitution
and
State v. Risk
an ambiguous invocation of the right to counsel before continuing with interrogation), with
Davis v. United States,

). Unless there is a good reason to do so,

C/D-2

App. 40

we should not back away from that commitment

context. And there is no good reason to do so in this case. 1
evious invocation of his right to counsel
made during his June 2016 interrogation did not carry over to prevent the January 2017
interrogation. In Scanlon, we held that a break in custody of several months nullified

district court that the rule in Scanlon applies equally here, where Ezeka had been out of
police custody for 102 days of the 235 days between the June 2016 interrogation when he
invoked his right to counsel and the January 2017 interrogation. There is no reason for our
court to reach out beyond the facts of this case to adopt the federal bright-line 14-day rule
of Maryland v. Shatzer, 559 U.S. 98 (2010).2 See State v. N. Star Research & Dev. Inst.,

1

commitment to greater protection for individual liberty under the Minnesota Constitution.
The court is not overruling our clear precedent interpreting the Minnesota Constitution to
provide broader protection to suspects during investigations than is provided under the
United States Constitution. But I cannot understand why this Minnesota court, in a case
where it need not reach the issue, would voluntarily cede the constitutional authority
granted to it by the people of Minnesota to a panel of nine non-Minnesotans sitting in
Washington D.C. See generally Friedman v. Comm’r of Pub. Safety, 473 N.W.2d 828,
tradition of assuring the right to counsel
beyond the protections provided by the federal constitution and holding that the Minnesota
Constitution affords suspects a limited right to consult an attorney before deciding whether
to submit to chemical testing for blood alcohol).
2

I do not agree that a totality-of-the-circumstances test is impractical for assessing
whether sufficient time has passed after a Miranda warning has been given to reinitiate an
interrogation, or that the needs of the police and public safety demand an arbitrary brightline rule that the Supreme Court of the United States seemingly plucked out of thin air. See
generally Hannah Misner, Maryland v. Shatzer: Stamping a Fourteen-Day Expiration Date
on Miranda Rights, 88 Denver Univ. L. Rev. 289 (2010) (critiquing the decision in
Shatzer). Certainly no evidence was admitted in this case that crime-fighting has been
C/D-3

App. 41

200 N.W.2d 410,

not decide important constitutional

questions unless it is necessary to do so
II.
Ezeka asserts that his January 2017 statement must be suppressed as the product of
coercion. As our division on this issue shows, this is a difficult decision.
Dating back many decades, the Supreme Court of the United States recognized that
the Due Process Clause of the United States Constitution prohibits the State from using
confessions obtained under coercive circumstances such that
overborne at the time the confession was made. See Dickerson v. United States, 530 U.S.
rming due process prohibition on use of involuntary
confessions); Miller v. Fenton

Brown, 297 U.S at 286. The

Supreme Court has repeatedly stated that coerced confessions
Blackburn v. Alabama, 361 U.S. 199, 207
(1960); see also Miller, 474 U.S. at

include avoiding false

confessions, ensuring that police obey the law while enforcing the law, upholding a
civilized system of justice, as

dignity, personal autonomy and

See Joshua Dressler & Alan C. Michaels, Understanding Criminal

impaired because Minnesota police are uncertain about the number of days they must wait
after a break in custody before they can reinitiate an interrogation. I trust police officers to
exercise the type of reasonableness that underlies the totality-of-the-circumstances test in
that regard. More to the point, we cannot anticipate the precise facts of future cases. There
may be a situation in the future where the reinitiation of an interrogation of an individual
after 18 days out of custody crosses the line into unconstitutionally compelled selfincrimination. We should wait
t the more than seven times
o shunt away the unique protections of our Minnesota Constitution.
C/D-4

Procedure

App. 42

Nexis ed., 5th ed. 2010) (citing Colorado v. Connelly, 479 U.S.
Miller, 474 U.S. at 109; and Spano v. New York, 360 U.S. 315, 320

(1959)). Many of these fundamental values are implicated in this case. Recognizing the
fundamental unfairness inherent in coerced confessions, true statements as well as false
statements resulting from coerced confessions must be suppressed.

See Rogers v.

Richmond
In addition to constitutional concern for fundamental fairness, coerced confessions
also run afoul of the Fifth and Sixth Amendments which protect individual liberty from the
overwhelming power of the State in criminal prosecutions. See U.S. Const. amends. V,
VI. In Miranda v. Arizona, the Supreme Court recognized
exacts a heavy toll on individual liberty and tr
held that the Fifth Amendment privilege against compulsory self-incrimination applies in
the context of custodial interrogations. 384 U.S. 436, 455, 478 (1966); see Malloy v.
Hogan, 378 U.S. 1, 6 (1964) (stating that the Fifth Amendment privilege against compelled
self-incrimination is binding on the States). The Supreme Court has determined that
custodial interrogations are presumptively coercive. Miranda, 384 U.S. at 455; see also
Oregon v. Elstad

Miranda to state that custodial

interrogations are presumptively coercive).

of his ability to make an
unconstrained and wholly aut

State v. Pilcher, 472 N.W.2d

327, 333 (Minn. 1991). We assess whether such deprivation occurred by considering all
C/D-5

App. 43

the circumstances surrounding the interrogation and confession. Id. The State has the
burden of proving the voluntariness of the confession by a preponderance of the evidence.
State v. Nelson, 886 N.W.2d 505, 509 (Minn. 2016).
I start with the findings of the district court which are entitled to due deference
unless clearly erroneous. State v. Anderson, 396 N.W.2d 564, 565 (Minn. 1986). The
district court, having reviewed the interrogations and hearing the testimony of the two
officers and Ezeka, issued a lengthy and detailed order with several important findings that
are supported by the record. But I conclude that the district court clearly erred when it
investigator] mentioned several times that he was going to
read [Ezeka] his Miranda rights, but it was [Ezeka] who kept asking questions which
delayed the reading of Miranda

Justice Anderson, the district
rd. In fact, on more than one occasion, the

second police investigator distracted the first investigator from reading Ezeka his Miranda
rights.3 The court makes no effort to seriously engage with the central fact that a detective,
who previously and indisputab

l rights, made a conscious

and deliberate decision to repeatedly delay the Miranda warning in an inherently coercive
environment.

3

overstatement. But I am not convinced the
finding matters much. Our constitution does not require that police be cordial and
encouraging. Based on my review of the record, the demeanor of the investigators was
also not unusually harsh or threatening, which should be the relevant inquiry.
C/D-6

App. 44

Ezeka makes three arguments that his will was overborne, thereby making his
statement involuntary. First, he argues that the police promised that he would receive a
more lenient sentence if he admitted that he fired the shots at the car, including the shot
that killed Birdell Beeks. We have acknowledged that express or implied promises of
special treatment in exchange for a confession may render the confession involuntary. See
Nelson, 886 N.W.2d at 505; State v. Biron
we have also been clear in numerous cases that we will not find the confession involuntary
when it was not reasonable in the circumstances for a suspect to understand the police
statement as a promise of special treatment in exchange for a confession. See Nelson, 886
State v. Cox, 884 N.W.2d 400, 410 (Minn. 2016) (observing that
officers made no promise that

hey would attempt to obtain
State v. Farnsworth, 738 N.W.2d 364,
that there was no promise of treatment made in lieu of

prosecution); In re Welfare of M.D.S., 345 N.W.2d 723, 732 (Minn. 1984) (holding that
the statements of police provided no objective basis for a juvenile to believe that if she
cooperated with the investigation and confessed, she would be given immunity); State v.
Merrill

oncluding that police made no actual or

implied promise by informing the suspect that, although they had evidence supporting a
murder charge, others in a similar situation had been charged with manslaughter),
abrogated on other grounds by State v. Dahlin, 695 N.W.2d 588 (Minn. 2005); see
generally State v. Williams, 535 N.W.2d 277, 287 (Minn. 1995) (stating that the purpose
of the rule suppressing involuntary confessions is to deter coercive police conduct).
C/D-7

App. 45

more leniency from prosecutors if he cooperated and confessed. Rather, he was told
truthful information about the potential consequences he faced. See Pilcher, 472 N.W.2d
at 334 (stating that it is not improper for police to inform a suspect of possible charges and
evidence in the case). Accordingly, I agree with the court: I cannot conclude that Ezeka
was coerced by false promises.
Second, Ezeka argues that the investigat
mean people would stop shooting up his family
and family, was coercive. Police statements that raise the specter that a confession may
reduce a threat of physical violence to a suspect or his family could, in certain
circumstances, be sufficiently powerful to cause an innocent suspect to falsely admit to
conduct.

And it remains a factor even here for purposes of the totality-of-the-

circumstances test. But based on my review of the record, Ezeka did not confess to ensure

interrogation. Consequently, I agree with the court on this point. I cannot conclude in
s coerced by suggestions that a confession
would keep his family safe.
Third, Ezeka asserts that coercion was demonstrated by a constellation of police
me investigators who interrogated Ezeka in
January 2017 blatantly ignored a plain request to remain silent and speak to a lawyer during

C/D-8

App. 46

the June 2016 interrogation;4 following the June 2016 interrogation, Ezeka was held in
police custody for 23 days; immediately prior to the January 2017 interrogation, Ezeka was
apprehended after six officers with guns drawn entered his
and his girlfriend were together; the police failed to immediately give Ezeka a Miranda
warning at the beginning of the January 2017 interrogation; and multiple times during the
January 2017 interrogation one investigator refused to allow the other investigator to read
Ezeka his Miranda rights, including at least one instance where the investigator expressly
waived off the Miranda rights. Notably, the district court expressly found that one
to keep [Ezeka] from saying anything substantive about the
case until the Miranda

warning kept being delayed. That

is simply impermissible conduct.
Based on those experiences, Ezeka argues, he had no reason to believe that the
investigators would honor a future request to speak with a lawyer or a refusal to talk to
police.

Stated another way, Ezeka argues that he perceived the promise that the

investigators would allow him to remain silent to be meaningless because, based on his

4

As discussed above, I concur in the cour
months nullified the June 2016 Miranda warning such that the investigators did not violate
the federal and Minnesota constitutions by initiating a second interrogation of Ezeka in
January 2017. That conclusion does not mean, however, that we cannot consider the
remain silent and to speak to counsel as part of our totality-of-the-circumstances inquiry
2017 statements were the product of an unconstrained and
wholly autonomous decision to speak. Indeed, his treatment by the police in June 2016
and January 2017 in the investigation of the Beeks murder is
important experience for purposes of assessing whether his confession was voluntary or
coerced.
C/D-9

App. 47

relevant and immediate experience, the investigators simply would not honor that right and
would continue to interrogate him until he confessed. If true, that is unquestionably a
coercive interrogation; indeed, it is the definition of one.
I conclude that the State did not carry its burden of proving that, under the
circumstances just described, Ezeka was not deprived of his ability to make an
unconstrained and wholly autonomous decision to speak. See Pilcher, 472 N.W.2d at 333.
The State does not now contest that the investigators ignored a clear and unequivocal
Miranda rights in June 2016 or that he was held in jail for 23 days
after that interrogation. The detectives indisputably and intentionally delayed giving Ezeka
a Miranda warning in January 2017 for over 13 minutes of interrogation even though (as
the State agrees) Ezeka was in custody. And a review of the interrogation transcript and
video shows that one investigator specifically overrode the efforts of the other investigator
to give the Miranda advisory.
Our coercion inquiry is a totality-of-the-circumstances analysis, which, by its
nature, requires a case-by-case approach. But over time, our coercion jurisprudence has
Jungbauer list of factors.5 See, e.g., Pilcher,
472 N.W.2d at 333. We must remain vigilant that the analysis does not devolve into the

5

The coercion inquiry includes consideration of such factors as
the age, maturity, intelligence, education, and experience of the defendant
and the ability of the defendant to comprehend; the lack or adequacy of
warnings; the length and legality of the detention; the nature of the
interrogation; whether the defendant was deprived of physical needs; and
whether the defendant was denied access to friends.
State v. Jungbauer, 348 N.W.2d 344, 346 (Minn. 1984) (citing State v. Linder, 268 N.W.2d

C/D-10

App. 48

checking off of boxes on a list, regardless of whether any particular factor says anything
about the specific case under consideration, or whether other factors may be relevant to the
inquiry in a particular case. And I agree that some of the physical aspects of this
interrogation were not unreasonable. There were no physical threats or intimidation tactics.
The court relies on the asserted brevity of
the January 2017 interrogation started and when Ezeka received the Miranda warning.
Certainly, in other cases, we have found a confession voluntary after a slightly longer delay
between the initiation of the interrogation and the Miranda warning. See State v. Scott,
584 N.W.2d 412, 418 (Minn. 1998) (referring to an unwarned 15-minute period of
interrogation). But there is no magic constitutional time period that makes an interrogation
voluntary or coerced. What matters is what happened before and during those 13 minutes.

refused multiple times to provide a Miranda warning, ignoring the underlying
constitutional promises that an individual will not be forced by the State to testify against
himself. In that broader context of his prior experiences, Ezeka likely would feel isolated
and hopeless; a fact the investigator played upon by delaying and waving off efforts to
inform Ezeka of his constitutional rights.
The investigators easily could have read Ezeka his Miranda rights at the start of the
custodial interrogation. Had the officers done so, the course and experience of the
interrogation would have been different. The State offers no explanation as to why the
detectives failed to immediately give the warning. Notably, in our long series of cases
C/D-11

App. 49

dealing with questions of coercion and the voluntariness of a confession, there are very few
examples of a custodial interrogation where the police did not provide a Miranda warning
before the interrogation. Indeed, in several cases, we noted that the suspect was advised
multiple times of his Miranda rights during an interrogation.
experience with law enforcement in
determining that his confession was voluntary. Experience with law enforcement and
having a criminal history may be relevant to assessing whether a statement was voluntary.
was familiar with the collateral

The court asserts that

consequences of a felony conviction [that he could go to prison], and his demeanor in the
interrogation suggests that he was aware of the
extent that Ezeka claims that he believed he would get a more lenient sentence by
cooperating, I agree that those considerations may be relevant with the proper proof.

experience with law enforcement generally is not relevant to demonstrate that his
experience with these investigators in June 2016 and January 2017 rendered his confession
unconstrained and wholly autonomous.

Th

the district court

specific to Ezeka or based on broader social science research,
to demonstrate that Ezeka was more likely to withstand coercive police techniques because
of his history with law enforcement than another suspect without the same history.6 There

6

We should take great care when we use
enforcement or a criminal history to assess whether a confession was voluntary. The
practical effect of an assumption that individuals with experience in the criminal justice
system are more likely as a group to be able to stand up to coercive police conduct is to
C/D-12

App. 50

is nothing in the record that tells us anything about his experiences one way or the other,
particularly with regard to interrogations following arrests. For all we know from the
record, it is equally possible th

constitutional rights, including

the right to remain silent, may have been ignored previously as well.
Finally, the fact that the detectives ultimately advised Ezeka of his Miranda rights
and Ezeka acknowledged those rights does not automatically cleanse the interrogation of
coercion. We recognized as much in State v. Bailey
2004) (suppressing statements made after a Miranda warning where the suspect was
subjected to coercive police interrogation before the Miranda warning was given).7
The recitation of Miranda rights is a constitutionally founded prophylactic against
the inherently coercive nature of custodial interrogations. A valid Miranda warning,
accompanied by a voluntary, knowing, and inte
Sixth Amendment rights, eliminates the presumption that a confession given during a

further embed in our criminal justice system the class and racial disparities that already
exist. Because people of color and poor people are more likely to have experience with
the criminal justice system, a rule of law that systemically rather than based on individual
case-by-case assessments provides less protection for their constitutional rights will
inevitably perpetuate those disparities and reduce trust in the fairness of our courts. See,
e.g., Susan M. Behuniak, How Race, Gender, and Class Assumptions Enter the Supreme
Court, 10 Race, Gender & Class
how judicial assumptions
starting points from which to engage in legal reasoning are
not always based on empirical data, but may be derived from culture or individual
xpression of power, hierarchy, and perhaps
7

This case differs from Scott
ere the totality of the
circumstances and police conduct did not evince a coercive environment that overcame the

C/D-13

App. 51

custodial interrogation was coercive. But the giving of a Miranda warning does not convert
an otherwise coerced confession

[I]t would be absurd to think

that mere recitation of the litany suffices to satisfy [the constitutional prohibition on
Missouri v. Siebert, 542 U.S.
600, 611 (2004).
Siebert is instructive. In Siebert, a police officer held off on giving a Miranda
warning until he had extracted a confession from the suspect. Id.
subsequently gave the suspect a Miranda warning after which the suspect confessed again.
Id.

Siebert Court held that the second confession was inadmissible. Id. at

617. In so holding, the Siebert Court reasoned that a Miranda warning is effective only
Id. at 609, 612.
In this case, the totality
for assistance of counsel and to remain silent in June 2016, followed by weeks in jail, an
arrest at gunpoint by six armed officers in
re and refusal to allow the Miranda rights to be administered
during the January 2017 custodial inte
coercive. And because of the specific conduct of the investigators who interrogated him
in June 2016 and January 2017, Ezeka likely did not believe that his constitutional rights
would be honored. The conduct of the investigators suggests that they would interrogate
Ezeka until he confessed, and the State did not carry its burden and introduce evidence
sufficient to overcome that conclusion. In s
not have a real choice about making a statement. Accordingly, the i
C/D-14

App. 52

reading of the Miranda warning to guarantee his rights was meaningless and cannot cleanse
the already existing coercive conditions into an unconstrained and wholly autonomous
decision to speak.
lpatory statement was not the product of
an unconstrained and wholly autonomous decision to speak. The statement should have
been excluded at trial. And for the reasons stated by Justice Anderson, I cannot conclude
that the guilty verdict in this case was surely unattributable to the constitutionally
impermissible admission of the statement. Therefore, I would reverse and remand for a
new trial.

C/D-15

App. 53

App. 54

App. 55

App. 56

App. 57

App. 58

App. 59

App. 60

App. 61

App. 62

App. 63

App. 64

App. 65

App. 66

App. 67

App. 68

App. 69

App. 70

App. 71

App. 72

App. 73

App. 74

App. 75

App. 76

App. 77

App. 78

App. 79

27-CR-17-1879

App. 80

Filed in Fourth Judicial District Court
11/27/2017 11:15 AM
Hennepin County, MN

27-CR-17-1879

App. 81

Filed in Fourth Judicial District Court
11/27/2017 11:15 AM
Hennepin County, MN

27-CR-17-1879

App. 82

Filed in Fourth Judicial District Court
11/27/2017 11:15 AM
Hennepin County, MN

27-CR-17-1879

App. 83

Filed in Fourth Judicial District Court
11/27/2017 11:15 AM
Hennepin County, MN

27-CR-17-1879

App. 84

Filed in Fourth Judicial District Court
11/27/2017 11:15 AM
Hennepin County, MN

27-CR-17-1879

App. 85

Filed in Fourth Judicial District Court
11/27/2017 11:15 AM
Hennepin County, MN

27-CR-17-1879

App. 86

Filed in Fourth Judicial District Court
11/27/2017 11:15 AM
Hennepin County, MN

27-CR-17-1879

App. 87

Filed in Fourth Judicial District Court
11/27/2017 11:15 AM
Hennepin County, MN

27-CR-17-1879

App. 88

Filed in Fourth Judicial District Court
11/27/2017 11:15 AM
Hennepin County, MN

27-CR-17-1879

App. 89

Filed in Fourth Judicial District Court
11/27/2017 11:15 AM
Hennepin County, MN

App. 90
SUPREME COURT RULE 14.1(g)(i) STATEMENT
1. Petitioner’s attorneys raised Petitioner’s Fifth Amendment claims
(Question 1)—relating to Petitioner’s constitutional right to counsel,
Petitioner’s Miranda rights, the applicability of Maryland v. Shatzer, 559
U.S. 98 (2010) to Petitioner’s case, and Petitioner’s January 23, 2017
statement being involuntary— before the court of first instance and in the
appellate court. These issues were raised before the court of first instance
in Petitioner’s Memorandum in Support of Motion to Suppress Custodial
Statements (Oct. 24, 2017). See 2017 WL 8792599 (Minn. Dist. Ct.). The
same or similar issues were raised before the appellate court in Petitioner’s
Opening Brief and in Petitioner’s Reply Brief. See Pet. Opening Br., at 2541 (Minn.) (unpublished); Pet. Reply Br., 2019 WL 2291801, at 1-4 (Minn.).
2. Petitioner’s attorneys never raised the Sixth Amendment right to counsel
claims now raised by Petitioner (Question 2) in either the court of first
instance or in the appellate court; Petitioner’s attorneys did, however,
argue that Petitioner’s custodial statements should be suppressed because
they were obtained in violation of Petitioner’s right to counsel and were
involuntary. Petitioner believes the Sixth Amendment issues raised in this
petition are a simple enlargement of the extremely similar right to counsel
arguments and involuntariness arguments previously made by Petitioner’s
attorneys. While the Sixth Amendment issue has not been briefed
previously, the facts in the record are sufficiently developed as to make
review by this Court eminently practicable. As such, and in light of the
manifest injustice that will result if Petitioner’s Sixth Amendment claims
are not heard, Petitioner seeks review of this issue under Fed. R. Crim. P.
52(b), or alternatively, under this Court’s inherent sua sponte authority to
notice constitutional issues of import.
3. Petitioner’s trial counsel failed to object to the jury instruction regarding
the elements of premeditated murder in the court of first instance (Question
3). Petitioner’s appellate counsel argued that the jury instruction regarding
the elements of premeditated murder was plainly erroneous. See Pet.
Opening Br., at 41-53 (Minn.) (unpublished); Pet. Reply Br., 2019 WL
2291801, at 4-6 (Minn.). Petitioner’s appellate counsel invoked Petitioner’s
Sixth Amendment right to a trial by jury under the Sixth Amendment. See
Pet. Opening Br., at 43 (Minn.) (unpublished). Petitioner’s trial counsel did
not have occasion to object to the “clear and obvious test” used by the
Minnesota Supreme Court, but Petitioner’s appellate counsel did argue that
the jury instruction’s error was “plain” and that it affected Petitioner’s
substantial rights, and that reversal, in the exercise of discretion, was
warranted. Id. at 42-49; see also Pet. Reply Br., 2019 WL 2291801, at 4-6.

27-CR-17-1879

App. 91

App. 92

App. 93

App. 94

App. 95

App. 96

App. 97

App. 98

App. 99

App. 100

App. 101

App. 102

App. 103

App. 104

App. 105

Electronically Served
3/22/2018 1:03 PM
Hennepin County, MN

27-CR-17-1879

App. 106

27-CR-17-1879

App. 107

27-CR-17-1879

App. 108

27-CR-17-1879

App. 109

27-CR-17-1879

App. 110

27-CR-17-1879

App. 111

27-CR-17-1879

App. 112

27-CR-17-1879

App. 113

27-CR-17-1879

App. 114

27-CR-17-1879

App. 115

27-CR-17-1879

App. 116

27-CR-17-1879

App. 117

27-CR-17-1879

App. 118

27-CR-17-1879

App. 119

27-CR-17-1879

App. 120

27-CR-17-1879

App. 121

27-CR-17-1879

App. 122

27-CR-17-1879

App. 123

27-CR-17-1879

App. 124

27-CR-17-1879

App. 125

27-CR-17-1879

App. 126

27-CR-17-1879

App. 127

27-CR-17-1879

App. 128

27-CR-17-1879

App. 129

27-CR-17-1879

App. 130

27-CR-17-1879

App. 131

27-CR-17-1879

App. 132

27-CR-17-1879

App. 133

27-CR-17-1879

App. 134

27-CR-17-1879

App. 135

27-CR-17-1879

App. 136

27-CR-17-1879

App. 137

27-CR-17-1879

App. 138

27-CR-17-1879

App. 139

27-CR-17-1879

App. 140

27-CR-17-1879

App. 141

27-CR-17-1879

App. 142

27-CR-17-1879

App. 143

27-CR-17-1879

App. 144

27-CR-17-1879

App. 145

27-CR-17-1879

App. 146

27-CR-17-1879

App. 147

27-CR-17-1879

App. 148

27-CR-17-1879

App. 149

27-CR-17-1879

App. 150

27-CR-17-1879

App. 151

27-CR-17-1879

App. 152

27-CR-17-1879

App. 153

27-CR-17-1879

App. 154

27-CR-17-1879

App. 155

27-CR-17-1879

App. 156

27-CR-17-1879

App. 157

27-CR-17-1879

App. 158

27-CR-17-1879

App. 159

27-CR-17-1879

App. 160

27-CR-17-1879

App. 161

27-CR-17-1879

App. 162

27-CR-17-1879

App. 163

App. 164

App. 165

App. 166

App. 167

App. 168

App. 169

App. 170

App. 171

App. 172

App. 173

App. 174

App. 175

